Supreme Court, U.S.
FILED

AUG 0 4 2021

1-575

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Kevin Hall

— PETITIONER pro se

(Your Name)
vs.

Kul Sood, et al.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Seventh Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Kevin Hall, B-55872
(Your Name)

Dixon Correctional Center
2600 N. Brinton Avenue
(Address)

Dixon, IL 61021
(City, State, Zip Code)

n/a
(Phone Number)
I.

QUESTiON(S) PRESENTED
Did prison medical professionals, and the prison's healthcare contractor, Wexford
Health Sources Inc., through a course of easier and less "effecacious" treatment,
violate the Eighth Amendment?
/multiple
Does "medical visits" to prison medical professionals, contracted by Wexford Health
Sources Inc., necessarily result in constitutionally adequate treatment?
Has the medical treatment received, and the actions of attending medical staff,
actually caused suffering, harm, and irreversable injury as a result of deliberate
indifference?
Did the U.S. Court of Appeals, as concerns denial of attorney representation, so
far depart from the accepted and usual course of judicial proceedings as to call
for an exercise of this Court's supervisory power?

II.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ Xi All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Stephanie Dorethy, Chief Administrator
Wexford Health Sources, Inc.
Doctor Ritz, Medical Director
Catalino Bautista, Medical Director
Dan Dean, Director of Nurses
Ruth Brown, Director of Nurses
Lois Lindorff, Heal Case Administrator
Paula Young, Practical Nurse
Sara Faetanni, Registered Nurse
Lola Parrish, Registered Nurse

III.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-6

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

8

INDEX TO APPENDICES

APPENDIX A Decision of the U.S. Court of Appeals for the Seventh Circuit
APPENDIX B Decision of the U.S. District Court, Central Dist., Springfield Div.
APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

IV.

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER
Rodriques v. Plymouth Ambulance Service, 577 F.3d 816, 821 (C.A.7 2009)
Picard v. Connor, 404 U.S. 270, 275 (1971)
Johnson v. Avery, 393 U.S. 483, 487 (1969)
Halbert v. Michigan, 545 U.S. 605, 621 (2005)
Johnson v. Snyder, 444 F.3d 578 (C.A.7 2006)
Higgins v. Johnson, 346 F.3d 288 (C.A.7 2003)
Hathaway v. Coughlin, 747 F.3d 86 (1994)
Reed v. McBride, 178 F.3d 849 (C.A.7 1999)
Whitley v. Albers, 475 U.S. 312, 319 (1986)
Gutierrez v. Peters, 111 F.3d 1364, 1369 (C.A.7 1997)
Akers v. Wexford Health Services, Inc., 2015 U.S. Dist. LEXIS 98933
Williams v. United States, 747 F.Supp. 967, 1009 (1990)
Fields v. Smith, 653 F.3d 550, 556 (C.A.7 2001)
MeCowan v. Hulick, 612 F.3d 636, 640 (C.A.7 2010)

STATUTES AND RULES
Article VI
This Constitution, and the laws of the United States which shall be made in pur­
suance thereof ... under the authority of the United States, shall be the supreme
law of the land; and the judges in every State shall be bound thereby ...

OTHER
Amendment VII.
Excessive ... cruel and unusual punishment [shall not] be inflicted.

V.

4
4
4
4
4
4
5
5
5
5
5
5
6
6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[xl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A
the petition and is

to

[ ] reported at
; or.
[50 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix _R
the petition and is
[ ] reported at
; or,
[X] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 2S U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a wmit of certiorari was granted
to and including
(date) on
(date) in
Application No.A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Cruel and Unusual Punishment and Deliberate Indifference under the Eighth Amendment
of the U.S. Constitution.
The Supremacy Clause, Art. 6, cl. 2 of the U.S. Constitution.

3.

STATEMENT OF THE CASE
This claim, pursuant to 42 U.S.C. § 1983, sues the medical professionals at
Hill Correctional Center, and the prison's healthcare contractor, Wexford Health
Sources, Inc.. Petitioner claims a violation of his Eighth Amendment rights based
on inadequate treatment of his left bicept and actual harm (with irreversable in­
jury) as a result of deliberate indifference.
Also, Petitioner's complaint, however inartfully pleaded, "was not" held to
a less stringent standard than one drafted by a lawyer which the Court of Appeals
would not appoint.

See Rodrigues v. Plymouth Ambulance Service, 577 F.3d 816,

821 (C.A.7 2009)(pro se complaint to be liberally construed); Picard v. Connor,
404 U.S. 270, 278 (1971)(substance of federal claim is all that is required to
be fairly presented).
First,' Petitioner^asserted malfeasance from 2015 to the present day, and that
was how the record was developed. He also gave a "history-only" statement that
dated bade to 2011 which the Court of Appeals refused to take into consideration
because of timliness. (See Footnote at Page 3 of 6/30/21 Order.)
Second, the Court of Appela claimed to draw all reasonable inferences in the
light of the Petitioner. (See fl 5 at Page 3 of Order.) But by not granting him
appointment of counsel, and then holding his feet to the fire on mere legal techni­
calities, the court found (on numerous occassions) he did not effectively assess
the merits of his claim — regardless ofTtis slight educational attainments and lacking
basic legal skills, cf. Johnson v. Avery, 393 U.S. 483, 487 (1969); Halbert v.
Michigan, 545 U.S. 605, 621 (2005)(recognizing that "(68%) of the state prison
population lack the most basic literacy skills" as concerns legal litigation).
With respect to the "judgment" of the doctors, the Court of Appeals found
no evidence that they used anything but their professional judgment. (Order, Page
4 H 2) Of course there is not — what sane doctor would log-in he used less that
hisprofessiohaT'judpehf?^'PetitibherJh6wever7_dembnstrateddeliJ)era_teindrffer-_'....
ence, in the context of his 8th Amendment claim, in that prison officials acted
with sufficiently culpable state of mind. Johnson v. Snyder, 444 F.3d 578 (C.A.7
2006). A sufficiently culpable state of mind consists of subject awareness. Higgins
v. Johnson, 346 F.3d 288 (C.A.7 2003).

A sufficiently culpable state of mind can

4.

be established indirectly through circumstantial evidence [such as inadequate treat­
ment resulting in actual harm and irreversable injury to Petitioner's left bicept,
as a result of deliberate indifference.

The fact that pain persists to this day

speaks volumes concerning the "judgment" of the doctors and their unspoken/written
evidence of their using "less than" their professional judgment.
With respect to "multiple visits" to the Health Care Center, the Court of
Appeals found (a) Petitioner could not vicariously hold Wexfore liable for the
constitutional violations of its employees; and (b) the multiple visits, with re­
ferrals and procedures, proceeded quite swiftly, show no evidence of a constitutional
deprivation. (Order at Page 5 11 4)

Petitioner contends (a) courts have recognized

that multiple visits to the doctor do not necessarily result in constitutionally
adequate treatment. Hathaway v. Coughlin, 747 F.3d 86 (1994); Reed v. McBride,
178 F.3d 849 (C.A.7 1999) (especially when pain persists and these visits continue
to have no effect) — and (b) "It is 'obduracy' and 'wantonness', not 'inadvertence'
or 'error in good faith' that characterizes cruel and unusual punishment concerning
medical needs. Whitley v. Albers, 475 U.S. 312, 319 (1986).
Petitioner has proven deliberate indifference objectively and subjectively.
Objectively: prison officials knew about his medical need, and Subjectively: they
failed to respond to it in a reasonable and timely manner, cf. Gutierrez v. Peters,
111 F.3d 1364, 1369 (C.A.7 1997).
The Court of Appeals shunted Petitioner's argument that he was subjected to
a course of easier and less "effecacious" treatment that violated the 8th Amendment.
Assuming arguendo that conservative treatment serves the public interest, courts
have found that the public, Illinois and Illinois taxpayers who are paying the
bill, have a vested interest in ensuring that the constitutional rights of its
citizens are protected. Conservative treatment is not, in and of itself, deliberate
indifference, but Wexfor's persistence in using treatment that is ineffective is
a violation of the 8th amendment, because choosing easier and less efficacious
treatment amounts to deliberate indifference.
Inc., 2015 U.S. Dist.
prison medical staff)
the standard of "care
747 F.Supp. 967, 1009

Akers v. Wesford Health Services,
LEXIS 98933. Further., medical personnel (such as Wexford's
who undertake to treat problems of prisoners are held to
applicable to private citizens." Williams v. United States,
(1990).

Wexford's contract requires that all medical services are provided in accord­
ance with medically accepted community standards of care. — § 2.3.1.

5.

§ 2.2.3 of Wexford's contract with Illinois mandates they provide safe and adequate
medical services.
The concept of deliberate indifference encompasses the refusal of effactive
treatment. Fields v. Smith, 653 F.3d 550, 556 (C.A.7 2011), and the lmowing delay
of treatment to the point that an injury is exacerbated or pain is unnecessarily
prolonged. MeCowan v. Hulick, 612 F.3d 636, 640 (C.A17 2010).

6.

REASONS FOR GRANTING THE PETITION
The U.S. Court of Appeals for the Seventh Circuit has entered a decision in
conflict with its own prior decisions in that Petitioner demonstrated prison doctors
and medical staff acted with sufficient culpable state of mind — as clearly demon­
strated by the 7th Circuit decision Johnson v. Snyder, 444 F.3d 578 (C.A.7 2006).
sufficiently culpable state of mind consists of subject awareness
as clearly
demonstrated by the 7th Circuit decision Higgins v. Johnson, 346 F.3d 288 (C.A.7
2003).

A

The U.S. Court of Appeals for the Seventh Circuit has decided an important
federal question in a way that has so far departed from the accepted and usual course
of judicial proceedings as to call for an exercise of this Court's supervisory power .
—as concerns appointment of counsel denial and holding Petitioner to the same stardard
as would be held counsel. Petitioner's complaint, though given cursory reference,
was notliberally construed or held to have substance, cf. Rodrigues v. Plymouth
Ambulance Service, 577 F.3d 816, 821 (C.A.7 2009); Picard v. Connor, 404 U.S. 270,
278 (1971).
The U.S. Court of Appeals for the Seventh Circuit shunted Petitioner's argument
outlining how he was subjected to easier and less effecacious treatment that violated
the Eighth Amendment, and how this amounted to deliberate indifference. cf. Alcers
v. Wexford Health Services, Inc., 2015 U.S. Dixt. LEXIS 98933.
The U.S. Court of Appeals for the Seventh Circuit never touched on how Peti­
tioner's less effacacious treatment caused harm and still leaves him with constant
pain and irreversable injury to his left bicept, Instead "multiple visits to the
prison's..Hospital Care Unit was opined."This ruling is in conflict with the court's
own Reed v. McBride, 178 F.3d 849 (C.A.7 1999) decision.

7.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

8.

